CERTIFICATE OF SERVICE
NO. TBD
Gerald Sensabaugh
Petitioner(s)
v.
Kimber Halliburton et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the GERALD
SENSABAUGH PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Samuel Keith McPeak
Kent E. Herrin
Herrin, McPeak & Associates
P.O. Box 629
Johnson City, TN 37605
(423) 929-7113
Counsel for Kimber Halliburton,
in her official capacity,
and Washington Cty. Board of Education

Jeffrey M. Ward
Milligan & Coleman
P.O. Box 1060
Greeneville, TN 37743
(423) 639-6811
Counsel for Kimber Halliburton, individually

Lucas DeDeus

November 25, 2019
SCP Tracking: Dougherty III-1418 McCallie Avenue,-Cover White

